                  I
                       r"             --.ATIONALSCIENCE FOUNDATION
                                         WASHINGTON, D.C. 20550




I          O f f i c e of
    I n s p e c t o r General




                                   THEFT AND MISUSE OF NSF LETTERHEAD
                                                        -
I

I                               (Investigative Report       Case No.190010012)

      In Decemb
      willfully c
      stationery from
      Washington, D.C.
      representative wi                                                       a computer
      manufacturing and m                                                      As a sales
                                                                            hington, D.C.
      obtained the
      worker from
      altered an
                                               signed the letter with
                                              ad the letter delivered
     to an emp,loyee of a cont;a;tor      located at the National
     Aeronautics and Space Administration (NASA).         The letter
     fraudulently approved the National Space Science Data Center at
     NASA/Goddard as a Federally Funded Research and Development
     Center (FFRDC) which qualified for discounts.    These discounts
     entitle federal acrencies to purchase computers from companies
                                       at lower prices, through the
                                       (GSA) supply schedule.     The
     letter was used in the                          er hardware and
     software equipment from                           The discounted
     FFRDC price was $12,000                         itional discount
     of 17 percent ($5,700).
     The NASA Office of Inspector General (OIG) became aware of the
     above incident and initiated an investigation.    The NSF1s OIG
     assisted NASA in this investigation.   The prosecution of this
     case was coordinated by the U.S. Attorney1s Office and assisted
     by both OIG offices.
     On May 17, 1991, in the                                             for the Eastern
     District of Virginia, Mr.                                        pled guilty to a
     misdemeanor violation of title                                      Code, section
641, conversion of property of the Unifed States of a yalue of
less than $90. On August 2, 1991, ~ r Meyer
                                         .     was sentenced to 2
years of supervised probation and was ordered to pay a $5,000
fine and to complete 200 hours of community service.
All matters pertaining to this case have' been resolved and this
file is accordingly closed.
                                 September 12, 1991
